HHS/OIG Audit: Review of Medicare Payments for Beneficiaries with Institutional Status - Fallon Community Health Plan, Worcester, Massachusetts (A-05-01-00100)
Department
of Health and Human Services
Review of Medicare Payments for Beneficiaries with Institutional Status -
Fallon Community Health Plan, Worcester, Massachusetts
(A-05-01-00100)
May 14, 2002
Complete Text of Report is available in PDF format
(196kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review
was to determine if payments to Fallon Community Health Plan (Contract H9001)
were appropriate for beneficiaries reported as institutionalized.  The
final report points out that Fallon received Medicare overpayments totaling
$18,842 for 44 beneficiaries incorrectly classified as institutionalized during
the period January 1, 1998 through December 31, 2000.  All of the beneficiaries
were residents of domiciliary type facilities that did not qualify a beneficiary
for institutional status.  Fallon should not have received payment at the
enhanced institutional rate.